COMMODITY FUTURES TRADING COMMISSION

   SEMIANNUAL REPORT
         OF THE


  OFFICE OF THE
INSPECTOR GENERAL




     FOR THE PERIOD ENDING MARCH 31, 2012
                            u.s. COMMODITY FUTURES TRADING COMMISSION
                                                 Three Lafayette Centre
                                      1155 21st Street, NW, Washington, DC 20581
                                              Telephone: (202) 418-5110
                                               Facsimile: (202) 418-5522
                                                      www.cftc.gov


   Office of the                                 April 30, 2012
Inspector General




      TO:            The Commission

      FROM:          A. Roy Lavik   G R£
                     Inspector General

      SUBJECT:       Semiannual Report of the Office of the Inspector General


             Attached is the Office of the Inspector General's Semiannual Report (SAR) for the period
      from October 1,2011 through March 31, 2012. This report is submitted to you in accordance
      with the requirements of the Inspector General Act of 1978, as amended, 5 USC App. 3 sec. 5
      and 8G.

               Under section 5(b) of the IG Act, the SAR shall be transmitted to the appropriate
      committees or subcommittees of the Congress within thirty days after receipt of the Semiannual
      report, together with a report by the head of the establishment conforming to the requirements of
      section 5(b) of the IG Act.

             .I appreciate your continuing support of this office.
Recipients:

Gary Gensler
Chairman                             Scott D. O'Malla
                                     Commissioner
Jill E. Sommers,
Commissioner                         Mark P. Wetjen,
                                     Commissioner
Bart Chilton,
Commissioner




Attachment:
Semiannual Report for the CFTC OIG
               OFFICE OF THE INSPECTOR GENERAL
            COMMODITY FUTURES TRADING COMMISSION

                               SEMIANNUAL REPORT
                               FOR THE PERIOD FROM
                       October 1,2011 THROUGH March 31,2012


                               EXECUTIVE SUMMARY
        This semiannual report is issued by the Commodity Futures Trading Commission's
(CFTC's) Office of Inspector General (DIG) pursuant to the Inspector General Act of 1978, as
amended. It summarizes OIG's activities and accomplishments for the period October 1, 2011
through March 31,2012. During this period, OIG completed two audits, conducted one
procurement, issued a required discussion of management challenges, and completed one
preliminary investigation. One iI?-vestigation, initiated in a prior reporting period, was completed
during this reporting period. OIG reviewed proposed Division of Enforcement actions, as well as
selected rules proposed by CFTC and by regulated entities, participated in training, visited CFTC
field offices, and participated in Government-wide OIG professional and cooperative meetings
and activities. No investigations were pending at the close of this period. No significant
problems, abuses or deficiencies regarding CFTC programs and operations were identified
during the reporting period.

        Highlights of OIG's completed and ongoing audit, evaluation, investigation and other
projects include:

   •   OIG contracted for and monitored a required audit of the CFTC Customer Protection
       Fund. The IPA reported on October 24,2011, that the Customer Protection Fund
       financial statements as of September 30, 2011 and for the period from July 21,2010 to
       September 30,2011, were presented fairly, in all material respects, in conformity with
       U.S. generally accepted accounting principles.

   •   OIG contracted for and monitored the fiscal year (FY) 2011 audit of the CFTC financial
       statements. For the seventh consecutive year, an independent public accounting finn
       (IPA) reported on November 15,2011, that the CFTC financial statements were
       presented fairly, in all material respects, and in conformity with the U.S. generally
       accepted accounting principles for Federal agencies.


   •   OIG completed work on the FY 2011 review of compliance with the Federal Managers'
       Financial Integrity Act (FMFIA). No significant issues were noted.

   •   OIG completed work on the FY 2011 Federal Information Security Management Act
       (FISMA) independent evaluation. No significant issues were noted.

                                                 1
•   OIG issued its Assessment of the Most Serious Management Challenges Facing the
    CFTC: human resource expansion and management, efficient deployment of information
    technology resources, and expanding delivery of customer protection resources and
    consumer education.

•   At the request of Senator Shelby, in November 2011 OIG began a review ofCFTC's
    oversight and regulation ofMF Global, Inc. MF Global is now subject to a liquidation
    proceeding initiated by the Securities Investor Protection Corporation. Our review, as
    requested, will examine the CFTC's actions in the events leading up to the MF Global
    bankruptcy.

•   As a member of the Council of Inspectors General on Financial Oversight, in February
    2012 OIG began an audit of the Financial Stability Oversight Council's controls over
    sensitive and proprietary information.

•   OIG completed a preliminary investigation into anonymous allegations pertaining
    generally to technical aspects of the Dodd-Frank rulemaking addressing position limits
    for swaps, and alleging poor management of the rulemaking team. There were no
    findings of violative or improper misconduct in the February 15,2012 report.

•   OIG continued work on an inspection into record retention practices by the Division of
    Enforcement pertaining to investigative records. This inspection should enable the OIG
    to ascertain, over the review period, whether CFTC-DOE policies and procedures
    complied with National Archives and Records Administration (NARA) guidelines for
    retaining/destroying investigative files. This project is nearing completion.

•   Due to competing workload demands, OIG determined to delay completion of an
    inspection into a disclosure of trade information to Congress in 2008. The inspection was
    begun during the prior reporting period and prior to the receipt of anonymous allegations
    concerning the position limits rulemaking.

•   In accordance with the Improper Payments Elimination and Recovery Act (IPERA), OIG
    completed a limited review ofCFTC's compliance with IPERA. OIG issued a
    management letter to the CFTC Chairman on March 14,2012 providing negative
    assurance that CFTC was in compliance with IPERA.

•   In a prior reporting period we received an allegation of misconduct by staff and
    management in the Office of Proceedings. Due to an internal conflict, as well as staff
    resource concerns, we consulted within the OIG investigative community and found
    another OIG willing to conduct the investigation. On March 15,2012, the Treasury
    Inspector General for Tax Administration issued their report with no findings, but
    recommended that new allegations be referred to the Integrity Committee for the Council
    of Inspectors General on Integrity and Efficiency. The referral was made and the
    Integrity Committee will take up the allegations in their May 1, 2012 meeting.

                                           11
                    OFFICE OF THE INSPECTOR GENERAL
                 COMMODITY FUTURES TRADING COMMISSION

                                          SEMIANNUAL REPORT
                                         FOR THE PERIOD FROM
                                 October 1, 2011 THROUGH March 31, 2012

                                             TABLE OF CONTENTS


EXECUTIVE SUMMARY ............................................................................................................. i

TABLE OF CONTENTS ............................................................................................................... iii

INDEX OF IG ACT REPORTING REQUIREMENTS ................................................................ v

INTRODUCTION .......................................................................................................................... 1
   1.      CFTC Programs and Operations ......................................................................................... 1
   2.      OIG Responsibilities ........................................................................................................... 1
   3.      OIG Resources .................................................................................................................... 3
COMPLETED AUDITS, INSPECTIONS, EVALUATIONS, REVIEWS and OTHER
PROJECTS ..................................................................................................................................... 3
   1.         Audit of CFTC Customer Protection Fund for Fiscal Year 2011 ................................... 3
   2.         Audit of CFTC Financial Statements for Fiscal Year 2011 ............................................ 4
   3.         Review of Compliance with the Federal Managers' Financial Integrity Act, FMFIA ... 4
   4.         Evaluation of the CFTC Information Security Program and Practices, FISMA ............ 4
   5.         Assessment ofCFTC's Management Challenges ........................................................... 5
   6.         Limited Review ofCFTC's Compliance with the Improper Payments Elimination and
              Recovery Act (IPERA) ................................................................................................... 8
CURRENT AUDITS, REVIEWS, EVALUATIONS, and INSPECTIONS .................................. 8
   1.   Audit of CFTC Financial Statements for Fiscal Year 2012 ............................................. 8
   2.   Inspection of the Division of Enforcement's Investigative Records Disposition Policy. 9
   3.   Review of Oversight and Regulation by the Commodity Futures Trading Commission
        of MF Global Inc ............................................................................................................. 9
   4.   Audit of CFTC Controls and Protocols over Sensitive Information Collected and ........ ..
   Exchanged with the Financial Stability Oversight Council ...................................................... 10
AUDIT REPORTS and REVIEWS OVER SIX MONTHS OLD ............................................... 11

INVESTIGATIONS ..................................................................................................................... 11

SUMMARY OF MATTERS REFERRED TO PROSECUTORIAL AUTHORITIES ............... 12


                                                                      111
CONGRESSIONAL INQUIRIES ................................................................................................ 13

LEGISLATIVE, REGULATORY AND RULE REVIEWS ........................................................ 13

PEER REVIEWS .......................................................................................................................... 14

SUMMARY OF EACH REPORT MADE TO THE AGENCY HEAD ...................................... 15

REVISED MANAGEMENT DECISIONS .................................................................................. 15

INSPECTOR GENERAL DISAGREEMENT ............................................................................. 15

GAO LIASON .............................................................................................................................. 15

STRATEGIC PLAN FOR THE.................................................................................................... 16

OFFICE OF THE INSPECTOR GENERAL ............................................................................... 16
   1.         Investigative Agenda .................................................................................................... 16
   2.         Legislative and Regulatory Review Agenda................................................................. 16
   3.         Audit, Inspection, Evaluation and Review Agenda ...................................................... 17
CONTACTING THE OFFICE OF THE INSPECTOR GENERAL ............................................ 19




                                                                    iv
               INDEX OF IG ACT REPORTING REQUIREMENTS


Section 4(a)(2)    Review of legislation and regulations ...................................... 13

Section 5(a)(l)    Significant problems, abuses and deficiencies ............................ .i

Section 5(a)(2)    Recommendations with respect to significant problems .................... .i

Section 5(a)(3)    Significant recommendations that have not been completed ......... 11

Section 5(a) (4)   Matters referred to prosecutorial authorities ............................ 12

Section 5(a)(5)    Summary of instances where information was refused .............. ... 15

Section 5(a)(6)    Completed audit reports ....................................................... 3

Section 5(a)(7)    Significant audit reports ......................................................... 3

Section 5(a)(8)    Statistical Table-Questioned Costs ...................................... 20

Section 5(a)(9)    Statistical Table-Funds Recommended for Better Use ................ 21

Section 5(a)(10)   Audit reports lacking management decision .............................. 11

Section 5(a)(11)   Significant revised management decisions ................................ 15

Section 5(a)(12)   Significant management decisions where the IG disagrees ............. 15

Section 5(a)(13)   Information described under the Federal Financial Management. ...... 4
                   Improvement Act of 1996

Section 6(b)(2)    Summary of reports to Chairman where assistance was refused ..... .15




                                                 v
              OFFICE OF THE INSPECTOR GENERAL
           COMMODITY FUTURES TRADING COMMISSION

                              SEMIANNUAL REPORT
                              FOR THE PERIOD FROM
                      October 1,2011 THROUGH March 31,2012


                                    INTRODUCTION
1.     CFTC Programs and Operations

        Congress created the Commodity Futures Trading Commission in 1974 as an
independent agency with the mandate to regulate commodity futures and options markets in the
United States. The Commission's mandate was renewed and/or expanded in 1978, 1982, 1986,
1992 and 1995. In December 2000, the Commission was reauthorized by Congress and the
President through Fiscal Year 2005 with the passage of the Commodity Futures Modeniization
Act of 2000 (CFMA). In May of 2008, Congress reauthorized the CFTC through Fiscal Year
2013. On July 21,2010, the President signed into law the Dodd-Frank Wall Street Reform and
Consumer Protection Act (Dodd-Frank Act), P.L. 111-203, which expanded CFTC'sjurisdiction
and authorities.

         The CFTC is responsible for fostering the economic utility of futures markets by
encouraging their competitiveness and efficiency, ensuring their integrity and protecting market
participants against manipulation, abusive trade practices and fraud. Through effective oversight
regulation, the CFTC enables the commodity futures markets better to serve their vital function
in the nation's economy-providing a mechanism for price discovery and a means of offsetting
price risks. The recent Dodd-Frank Act authorized the CFTC to regulate swap dealers, increase
transparency and improve pricing in the derivatives marketplace, and lower risk to the American
public.
         The CFTC operating divisions are: Office of the Chairman, Office of the Executive
Director, Office of General Counsel, Division of Clearing and Intermediary Oversight, Division
of Enforcement, Division of Market Oversight and Office of the Chief Economist. In addition to
its headquarters office in Washington, DC, the CFTC maintains offices in Chicago, Illinois;
Kansas City, Missouri; and New York, New York.


2.     OIG Responsibilities

       The CFTC OIG was created in 1989 in accordance with the 1988 amendments to the
Inspector General Act of 1978 (P.L. 95-452). OIG was established as an independent unit to:




                                                                                          Page 1
    •    Promote economy, efficiency and effectiveness in the administration ofCFTC programs
         and operations and detect and prevent fraud, waste and abuse in such programs and
         operations;

    •    Conduct and supervise audits and, where necessary, investigations relating to the
         administration of CFTC programs and operations;

    •    Review existing and proposed legislation, regulations and exchange rules and make
         recommendations concerning their impact on the economy and efficiency of CFTC
         programs and operations or the prevention and detection of fraud and abuse;

    •    Recommend policies for, and conduct, supervise, or coordinate other activities carried out
         or financed by such establishment for the purpose of promoting economy and efficiency
         in the administration of, or preventing and detecting fraud and abuse in, its programs and
         operations; and

    •    Keep the Chairman and Congress fully informed about any problems or deficiencies in
         the administration of CFTC programs and operations and provide recommendations for
         correction of these problems or deficiencies.

        OIG is required to conduct, supervise and coordinate audits ofCFTC programs and
operations in accordance with generally accepted government auditing standards. l 010 is also
required to recommend changes to existing and proposed CFTC programs and operations to
promote economy, efficiency and effectiveness and to prevent and detect fraud and abuse.

        The 010 also conducts inspections, evaluations, and reviews from time to time. As
stated in the 2011 Quality Standards for Inspection and Evaluation issued by the Council of
Inspectors General for Integrity and Efficiency (CIOIE):

        An inspection is defined as a process that evaluates, reviews, studies, and/or analyzes the
programs and activities of a Department!Agency for the purposes of providing information to
managers for decision making; making recommendations for improvements to programs,
policies, or procedures; and identifying where administrative action may be necessary.
Inspections may be used to provide factual and analytical information; monitor compliance;
measure performance; assess the efficiency and effectiveness of programs and operations; share
best practices; and inquire into allegations of fraud, waste, abuse, and mismanagement. 2

        OIG investigations are performed in accordance with the Quality Standards/or
Investigations issued by the President's Council on Integrity and Efficiency and the Executive
Council on Integrity and Efficiency and are performed in response to allegations and/or evidence



1 The US Government Accountability Office issues the Government Auditing Standards (December 2011). The
standards are available at http://gao.gov/assets/590/58728I.pdf.
2 Quality Standards for Inspection and Evaluation, page i. http://www.ignet.gov/pande/standards/oeistdsII.pdf.


                                                                                                          Page 2
indicating possible violations of law, regulations, or applicable standards, as well as other
improper conduct in connection with the programs and operations ofthe Agency. 3

         OIG operates independently of the Agency and has not experienced any interference from
the CFTC Chaimlan in cOImection with the conduct of any investigation, inspection, evaluation,
review, or audit, and our investigations have been pursued regardless of the rank or party
affiliation of the target. OIG has conducted audits, inspections, evaluations, and reviews without
interference where it has perceived the opportunity to recommend improvement to futures
                                                                                   4
regulation efforts, again without regard to the party affiliation of any Chairman.


3.        OIG Resources

       The CFTC OIG consists of the Inspector General, a part-time Supervisory Auditor, a
Senior Auditor, an Attorney-Advisor, and a secretary. We anticipate hiring an additional FTE in
FY 2012. The Inspector General has been with the CFTC since 1990. -

          COMPLETED AUDITS, INSPECTIONS, EVALUATIONS,
                 REVIEWS and OTHER PROJECTS
1.        Audit of CFTC Customer Protection Fund for Fiscal Year 2011

Audit Objective.

        Section 74S(g)(S)(I) of the Dodd-Frank Act requires the Agency to submit to Congress a
yearly report on the Conmlission' s whistleblower award program that includes a complete set of
audited financial statements, including a balance sheet, income statement, and cash flow
analysis. The OIG undertook this required audit.

         The objective of this audit was to render an opinion on the CFTC ' s Customer Protection
Fund ' s financial statements and report on the Customer Protection Fund's internal controls and
compliance with laws and regulations. As pru1 of this audit, the OIG also reviewed the agency's
report to select Congressional committees on activities of the Customer Protection Fund during
the previous year.

Status.

      CFTC OIG contracted with an independent public accounting firm to perform this audit.
OIG monitored tillS required audit, and the IPA reported on October 24,2011 , that the Customer


3 The publication titled Quality Standards/or Investigations (December 2003) was issued by the President ' s
Council on Integrity and Efficiency and the Executive Council on Integrity and Efficiency and subsequently adopted
by the CIGIE. The standards are available at !illJ:1:llwww.ignet.gov/pande/standards/invstds.pdf.
'The Inspector General Act of 1978, as amended, states: "Neither the head of the establishment nor the officer next
in rank below such head shall prevent or prohibit the Inspector General from initiating, canying out, or completing
any audit or investigation .... " 5 U.S.C. App. 3 sec. 3(a).

                                                                                                           Page 3
Protection Fund financial statements as of September 30, 2011 and for the period from July 21,
2010 to September 30,2011, were presented fairly, in all material respects, in conformity with
U.S. generally accepted accounting principles.


2.        Audit of CFTC Financial Statements for Fiscal Year 2011

Audit Objective.

        In FY 2002, Congress passed the Accountability of Tax Dollars Act (ATDA). The
ATDA requires the CFTC, along with numerous other Federal entities, to have its financial
statements audited annually. To this end, following a formal procurement, the Inspector General
selected an IPA to provide the audit effort required to enable the contractor to render an opinion
on the agency's financial statements for Fiscal Year 2011.

       The objective of this audit was to render an opinion on the CFTC's financial statements
and report on the agency's internal controls and compliance with laws and regulations.

Status.

         For the seventh consecutive year, an independent public accounting firm reported that the
CFTC financial statements were presented fairly in all material respects, and in conformity with
the U.S. generally accepted accounting principles for Federal agencies. For the third consecutive
year the Commission had no material weaknesses, and was compliant with laws and regulations.
This includes compliance with the Federal Information Security Management Act. Furthermore,
the CFTC financial management system is in substantial compliance with the Federal Financial
Management Improvement Act of 1996 (although CFTC is not required to comply with FFMIA,
it has elected to do so). The financial statement audit report was issued on November 14,2011.


3.        Review of Compliance with the Federal Managers' Financial Integrity Act, FMFIA

Objective.

       In support of OMB Circular A-123 (Revised), the Inspector General evaluates, provides
technical assistance and advises the agency head as to whether the agency's review and
evaluation process was conducted in accordance with the circular's requirements.

Status.

       OIG reviewed all of the internal control assessments produced by agency staff. OIG
reported the results of its review of the assessment process to the Chairman in its annual
assurance letters to the Chairman. No significant issues were noted.


4.        Evaluation of the CFTC Information Security Program and Practices, FISMA

                                                                                           Page 4
Objective.

        The Federal Information Security Management Act requires the Inspector General or his
designee to perform annual independent evaluations of the information security program and
practices of the agency.

Status.

        To review the Commission's security program, Office of Data and Technology (ODT)
and OIG worked jointly in gathering and interpreting information relating to the CFTC
information security program. Using the information supplied by OITS staff, a contractor and
the program managers, the Inspector General reviewed and analyzed the information and
responded in tabular form to the questions raised by the OMB Guidance. Results of this effort
were transmitted to the CFTC's Chief Information Officer (CIO) in November 2011, for
combination with the CIO's assessment and inclusion in the Chairman's report to OMB. No
significant issues were noted.


5.        Assessment of CFTC's Management Challenges

Objective.

       The Reports Consolidation Act of 2000 requires the Inspector General to summarize the
most serious management and performance challenges facing the CFTC and to assess the
Agency's progress in addressing those challenges.

Status.

        In accordance with the Reports Consolidation Act of2000, the OIG prepared the required
summary of the Agency's most serious management and performance challenges facing the
Agency at the close ofFY 2011, and reported on the Agency's progress addressing the most
serious management and performance challenges identified by the OIG at the close ofFY 2010.
OIG completed this requirement in November 2011 for inclusion in the annual CFTC Annual
Financial Report (AFR)5 that is submitted to Congress. We posted the report to our website. 6
Our report is summarized below.

Update: FY 2010 Management Challenges identified by the OIG. At the close ofFY 2010, the
OIG identified two most serious management challenges: Implementation ofthe Dodd-FrankAct
and Human Resource Expansion and Management. During fiscal year 2011 the Agency
addressed both issues, making substantial progress.


s http://www.cftc.gov/ucm/grOups/public/@aboutcftc/docurnents/file/20 11 afr.pdf at page 82.
6 http://www.cftc.gov/AboutlOfficeoftheInspectorGeneraVindex.htm.




                                                                                               PageS
Implementation ofthe Dodd-FrankAct. Title VII of the Dodd-Frank Act amended the
Commodity Exchange Act to establish a comprehensive new regulatory framework for swaps
and security-based swaps. In order to implement the Dodd-Frank Act, the Commission
identified over 30 areas where rules will be necessary. Many rules required or resulted in
cooperative efforts with the Securities and Exchange Commission or other federal agencies. In
addition, the Dodd-Frank Act called for numerous studies and other undertakings by the
Commission, some also with cooperation from other agencies. Last year, we believed the
magnitude of this undertaking, especially given the deadlines set out under the Dodd-Frank Act,
presented a serious management challenge.

        During FY 2011 CFTC staff and Commissioners met more than 1,000 times with
members of the public to discuss rules proposed under Dodd-Frank, and conducted 14 public
roundtables. The Commission reviewed more than 25,000 comment letters pertaining to Dodd-
Frank. The Commission held 20 public meetings to vote on various Dodd-Frank matters, and
more meetings are scheduled this year and into next year. The Commission issued nearly 60
proposed rules, notices, or other requests seeking public comment, as well as 22 final rules,
interim final rules, and exemptions, but implementation is not yet complete.

       In order to address the new regulatory mandates stated in the Dodd-Frank Act, the
Agency has reorganized into 4 Divisions and 7 operating offices. Operational challenges
associated with Dodd-Frank implementation remain, in our view, a serious management
challenge.

Human Resource Expansion and Management. The Commission's new responsibilities under
Dodd-Frank significantly increased its workload. By the end of fiscal year 2010, the Commission
had on-board 687 employees, which is 58 below the 745 FTE CFTC requested to carry out
CFTC's pre-Dodd-Frank authorities. We viewed the possibility of a rapid and dramatic increase
in new employees to address new rules over newly regulated markets a significant management
challenge during Fiscal Year 2011. We also viewed the management of existing staff to take on
additional tasks to present a formidable management challenge.

        During Fiscal Year 2011 the agency secured additional appropriations and staff. The
CFTC's 2011 spending plan accommodated 717 FTEs. In November 2011 it was our
understanding, based on the President's Budget Submission, that CFTC may increase to 983 staff
years - an increase of over 200 staff years - for FY 2012 and, accordingly, we restate Human
Resource Expansion and Management as a serious and continuing management challenge in the
coming fiscal year.

FY 2011 Most Serious Management Challenges. As stated above, at the close of FY 2011 the
DIG identified Human Resource Expansion and Management for a second year, and identified
two additional "most serious" management challenges:

EffiCient Deployment ofInformation Technology Resources

      According to current data, over eighty percent of futures and options trading on the
Chicago Mercantile Exchange are transacted electronically. We believe that expanded


                                                                                             Page 6
jurisdiction over swaps will increase the volume of electronic trading the Agency will monitor.
As a result of this structural shift in futures trading (from floor based open outcry to electronic
platforms), the CFTC has requested from Congress and received additional resources to facilitate
electronic surveillance.

        Congress in FY 2011 authorized a minimum of $37.2 million for "the highest priority
information technology activities of the Commission." In response to this congressional
directive as well as the Agency's added responsibility over the swaps marketplace, the Agency in
FY 2011 allocated over $42 million dollars towards technological modernization (21 % ofFY
20 11 appropriations). Approximately two thirds of this budgeted commitment was targeted
towards automated data processing systems to modernize the Agency's systems for capturing
and processing market related data. We identified efficient deployment of information
technology resources as a serious management challenge for the coming year.

Expanding Delivery ofCustomer Protection Resources and Consumer Education

        Section of 748(g) of the Dodd-Frank Act added section 23(g) to the Commodity
Exchange Act to establish within the Treasury of the United States a revolving fund that will be
available to the Agency for the payment of whistleblower awards and education initiatives. The
new Customer Protection Fund may be funded -- up to $100 million -- by civil monetary
penalties collected through the Commission's enforcement program that are not otherwise
distributed to victims. At the end of FY20 11 the Customer Protection Fund totaled over $23
million dollars. On October 24, 2011, an initial Office of the Inspector General financial
statement audit of the Customer Protection Fund resulted in an unqualified opinion on the
financial statements, which is encouraging.

        Increasingly, the Customer Protection Fund's resources and commitments will demand
significant management attention. This new commitment to whistleblower protection and
education will challenge the Agency to effectively manage decisions regarding additions to and
awards from the CPF, develop its organizational structure, and prudently manage significant
additional resources. We are encouraged that the agency will soon select management for the
startup Customer Protection Fund and Consumer Education initiatives, but nevertheless we count
the creation of this new program among the most serious management challenges facing the
Commission in the coming year.




                                                                                            Page 7
6.        Limited Review of CFTC's Compliance with the Improper Payments Elimination
          and Recovery Act (lPERA)

Objective.

        IPERA directs each agency's Inspector General, beginning with Fiscal Year 2011, to
review agency improper payment reporting in the agency's Annual Financial Report (AFR) to
assess the agency's compliance with IPERA.

Status.

       OIG issued a letter report on March 14,2012 providing negative assurance that CFTC
was in compliance with IPERA.


                CURRENT AUDITS, REVIEWS, EVALUATIONS, and
                           INSPECTIONS

        At the end of this reporting period, there were two ongoing audits, and one ongoing
inspection.

1.        Audit of CFTC Financial Statements for Fiscal Year 2012

Background.

       In FY 2002, Congress passed the Accountability of Tax Dollars Act. The Act requires
the CFTC, along with numerous other Federal entities, to obtain an independent financial
statement audit each year. During FY 2012, the Inspector General selected an IP A to render an
opinion on the agency's financial statements for Fiscal Year 2012. The audit will be performed
in accordance with generally accepted auditing standards, Government Auditing Standards,
OMB Bulletin 01-02 and OMB Circular A-136.

Audit Objective.

        The objective of this audit is to render an opinion on the CFTC's financial statements and
report on internal controls and compliance with laws and regulations.

Status.

         The Fiscal Year 2012 audit began in February with submission of planning documents
that set out the framework for this year's financial statement audit. In addition, OIG scheduled
the entrance conference with senior agency managers, and representatives from the IPA and
OIG. Further meetings and reviews will be ongoing throughout the coming reporting period



                                                                                           Page 8
while work on the audit is ongoing. The final audit report is to be delivered to the Office of the
Inspector General in November 2012.


2.        Inspection of the Division of Enforcement's Investigative Records Disposition Policy

Background.

        The CFTC Division of Enforcement (CFTC-DOE) is authorized to conduct investigations
of industry participants for non-compliance with the Commodity Exchange Act and product
related malfeasance. It is incumbent upon CFTC-DOE management to assure that all
enforcement records are disposed of as authorized under record retention schedules approved by
the National Archives and Records Administration.

Objective.

       This inspection will enable the OIG to ascertain, over the review period (January 1,2008
to August 1,2011), whether the CFTC-DOE policies and procedures complied with National
Archives and Records Administration guidelines for retaining/destroying investigative files.

Status.

        At the close of the reporting period fieldwork for this inspection was completed, a draft
report is undergoing review, and the final report will shortly be issued.



3.        Review of Oversight and Regulation by the Commodity Futures Trading
          Commission of MF Global Inc.

Background.

       On November 30, 2011, Senator Richard Shelby requested that OIG perform a "review of
the oversight and regulation by the Commodity Futures Trading Commission of MF Global Inc.
("MF Global,,).7 MF Global is subject to a liquidation proceeding initiated by the Securities
Investor Protection Corporation ("SIPC"). The Senator requested the following:

1)    A detailed account of the CFTC's role in overseeing and regulating MFGI, including an
assessment of whether its oversight and regulation of MFGI differed in any material way from its
oversight and regulation of other futures commission merchants;




7 The text of the letter is available at htt,p:llshelby.senate.gov/public/index.cfin/newsreleases?ID=8355755f-2d3b-
40ID-9ce9-27cdfcded885.


                                                                                                             Page 9
2)   A detailed account of how the CFTC coordinated with the Chicago Mercantile Exchange
("CME"), the designated self-regulatory organization for MFGI, in overseeing MFGI's customer
segregated funds;

3)   A summary of relevant examination manuals or other guidance for staff involved in
overseeing and regulating MFGI or monitoring the CME's oversight ofMFGI;

4)   An analysis of whether and how the CFTC's oversight ofMFGI changed after the CFTC's
enforcement actions against MFGI in December 2007 and December 2009;

5)    An analysis of the CFTC's role in the determination that caused MFGI to increase its net
capital in August 2011;

6)    An analysis of the CFTC's activities with respect to MFGI in the week prior to the
liquidation;

7)   An analysis of whether CFTC Chairman Gary Gensler's decision to recuse himself from
matters relating to the MFGI investigation is consistent with the CFTC's official recusal policy;
and

8)    An analysis of whether and how a decision by CFTC Chairman Gary Gensler to recuse
himself from previous matters relating to MFGI would have been consistent with the CFTC's
official recusal policy.

Status.

          Work on this request was ongoing at the close of the reporting period.


4.        Audit of CFTC Controls and Protocols over Sensitive Information Collected and
          Exchanged with the Financial Stability Oversight Council

Background

        The Dodd-Frank Wall Street Reform and Consumer Protection Act of 20 10 established
the Financial Stability Oversight Council (FSOC). The Council is charged with identifying
threats to the fmancial stability of the United States; promoting market discipline; and
responding to emerging risks to the stability of the United States financial system. The CFTC is
one of nine federal financial agency member ofFSOC. In February 2012, each FSOC member's
Office of the Inspector General launched an audit at their respective agency.




                                                                                           Page 10
Objective

       At the CFTC the objective is to acquire, evaluate, and report on CFTC policies and
procedures for managing and protecting FSOC related information. The result of the CFTC OIG
audit will be included in the Council of Inspectors General on Financial Oversight (CIGFO)
Working Group audit of FSOC controls over sensitive information.



        Fieldwork is complete and in April 2012 the CFTC-OIG will provide CIGFO with its
results using a common data collection instrument.



     AUDIT REPORTS and REVIEWS OVER SIX MONTHS OLD
1.     Corrective Action not Completed

       There were no instances of audit reports over six months old where corrective action had
not been completed.

2.     Corrective Action Completed

        There were no instances of reports issued before the commencement of the reporting
period for which corrective action had been completed by the end of the reporting period.

3.    Management Decision not Made

        There are no instances of a report issued before the commencement of the reporting
period for which a management decision had not been made by the end of the reporting period.
In 2006, the CFTC OIG issued a report titled "Review of the Need for a Western Regional Office
in Los Angeles." That report recommended, among other things, that the Commission review
the feasibility of reestablishing the former Los Angeles field office. That recommendation was
not carried out largely due to budget constraints. In January 2008, partially in response to a
Congressional inquiry, CFTC OIG updated its analysis and on March 12,2008, issued a follow-
up report which reiterated the earlier recommendation. In January 2009, the Acting Chairman
issued a decision declining to implement the recommendation generally due to cost
considerations, but asked the Agency to revisit the issue on a yearly basis. We agree that this
recommendation should be revisited, and implemented when feasible.



                                     INVESTIGATIONS
        The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees and other


                                                                                       Page 11
sources concerning the possible existence of an activity constituting a violation of law, rules or
regulations, or mismanagement, abuse of authority, or gross waste of funds, or a substantial and
specific danger to the public health and safety.

1.      Preliminary Investigation Regarding Position Limits Rulemaking Efforts

        One OIG investigation was pending as of the beginning of the reporting period. During
the prior reporting period we received anonymous allegations of misconduct in connection with
the position limits rulemaking efforts undertaken pursuant to the Dodd-Frank Act. We
completed our preliminary investigation in February 2012 and published our report to the OIG
website. 8 We found no evidence to sustain the allegations received, and found no evidence of
misconduct by CFTC staff. Due to the uniform quality of information received from CFTC
employees and management, we did not take steps to refer this matter for further investigation.


2.      Investigation Regarding Allegations of Misconduct in the Office of Proceedings;
         New Allegations

        During a prior reporting period, the OIG received an allegation of misconduct involving
staff and management in the Office of Proceedings. Due to an internal conflict within the OIG,
as well as resource concerns, we reached out to the OIG investigative community and obtained
the Treasury Inspector General for Tax Administration (TIGTA) to conduct this investigation.
The CFTC entered into a formal Economy Act9 agreement with TIGTA, and the investigation
was completed with the issuance of an investigative report to the CFTC on March 15, 2012.
That report contained no findings of misconduct by Agency employees, but recommended
referral of new allegations to the Integrity Committee for the Council of Inspectors General on
Integrity and Efficiency. The referral was made, and the Integrity Committee will take up the
allegations at their next meeting on May 1,2012.



                     SUMMARY OF MATTERS REFERRED TO
                       PROSECUTORIAL AUTHORITIES
         No matters were referred to prosecutorial authorities during the reporting period.




8 http://www .cftc.gov/ucm/groups/public/@aboutcftc/documents/file/oig investigation 021512.pdf.
9 The  Economy Act (31 U.S.C. 1535) authorizes agencies to enter into agreements to obtain supplies or services by
interagency acquisition.

                                                                                                          Page 12
                          CONGRESSIONAL INQUIRIES
        DIG fielded multiple requests for assistance from members of Congress and staff during
the reporting period. Issues addressed included recent DIG activities, recent agency activities,
and proposed and pending legislation affecting the DIG and the agency.




         LEGISLATIVE, REGULATORY AND RULE REVIEWS
1.     Introduction and Summary.

        As specified in Section 4(a)(2) of the Inspector General Act of 1978, DIG reviews the
impact of existing and proposed legislation and regulations on CFTC programs and operations
and makes recommendations regarding more effective or efficient alternatives or protections
against fraud and abuse. DIG also reviews exchange rule proposals circulated to senior staff at
CFTC.

        DIG notified the responsible Divisions as to any concerns with draft and final documents
relating to legislation, rules or investigations. Formal comments were not filed with the
Commission during this reporting period.


2.     Rule Reviews Initiated in Previous Reporting Periods.

        There were no rule reviews initiated in previous reporting periods which were continued
into this reporting period.

3.     Rule Reviews Initiated this Reporting Period.

       No rule reviews were initiated during this reporting period.

4.     Legislative Activities.

        DIG tracked legislation impacting programs and operations of the CFTC, and made
contact with Congressional staff concerning various agency and IG issues as appropriate. The
IG serves on the legislation committee for the Council of Inspectors General on Integrity and
Efficiency, which comments on proposed amendments to the IG Act and other legislation
affecting the IG community.




                                                                                         Page 13
                                               PEER REVIEWS
        An important function in each Agency OIG is the peer review process. The Inspector
General community's annual report, A Progress Report to the President, Fiscal Year 2007,10
described the processes for audits and investigative peer reviews as follows:

       Government Auditing Standards require that audit organizations conducting audits of
Federal agencies undergo peer reviews every 3 years. The IG community has implemented a
process to meet this requirement. The purpose of the peer review is to determine whether the
reviewed audit organization's internal quality control systems are adequate and provide
reasonable assurance that applicable auditing standards, policies and procedures are met.

Similarly, investigative peer reviews are conducted to ensure compliance with the requirements
of the Quality Standards for Investigations and determine whether adequate internal safeguards
and mana~ement procedures exist to ensure that law enforcement powers are properly
exercised. )

      Section 989C of the Dodd-Frank Act implemented a requirement to include in each OIG
semiannual report an appendix containing

       •   the results of any peer review conducted by another Office of Inspector General during
           the reporting period; or if no peer review was conducted within that reporting period, a
           statement identifying the date of the last peer review conducted by another Office of
           Inspector General;

       •   a list of any outstanding recommendations from any peer review conducted by another
           Office of Inspector General that have not been fully implemented, including a statement
           describing the status of the implementation and why implementation is not complete; and

       •   a list of any peer reviews conducted by the Inspector General of another Office of the
           Inspector General during the reporting period, including a list of any outstanding
           recommendations made from any previous peer review (including any peer review
           conducted before the reporting period) that remain outstanding or have not been fully
           implemented.

    No peer review was conducted of the CFTC OIG during this reporting period; however,
during a prior reporting period, the Federal Election Commission Office of Inspector General
completed a peer review ofCFTC OIG, as of March 31,2011, that resulted in 35
recommendations for improving CFTC OIG's operations. As of September 30,2011, CFTC OIG
had fully implemented all of the recommendations.



10   htqJ:llwww.ignet.gov/randp/fy07apr.pdf.
11   Id. atp.19.

                                                                                             Page 14
    CFTC OIG did not conduct any peer reviews during this reporting period and there remain
no outstanding recommendations from peer reviews previously conducted by CFTC OIG.
During this reporting period, OIG continued to monitor the government-wide OIG peer review
schedules as communicated by the Council of the Inspectors General on Integrity and Efficiency,
and participated in working groups and training pertaining to the peer review process.



  SUMMARY OF EACH REPORT MADE TO THE AGENCY HEAD

        No reports were made to the Agency head -under section 6(b)(2) concerning infonnation
or assistance unreasonably refused or not provided (mandated under section 5(a)(5) of the Act).



                     REVISED MANAGEMENT DECISIONS
        No management decisions were revised during the reporting period.




                   INSPECTOR GENERAL DISAGREEMENT
      The Inspector General did not disagree with any management decisions on OIG .
recommendations during the reporting period.



                                        GAO LIAS ON
        OIG is charged with providing policy direction for, and conducting, supervising, and
coordinating audits and investigations relating to CFTC programs and operations. In addition,
OIG is required to recommend policies for, and conduct, supervise, and coordinate with other
Federal agencies, state and local governmental agencies, and nongovernmental entities, audits,
investigations, and evaluations regarding the economy, efficiency, and effectiveness of CFTC
programs and operations.

        GAO also conducts audits of CFTC activities, and OIG plans its audits, inspections,
evaluations, reviews, and investigations so as not to duplicate GAO's efforts. Moreover, OIG in
its audit activities identifies the goals of each audit and the methods of reaching the goals so as to
minimize the requirements placed on CFTC resources.




                                                                                             Page 15
                        STRATEGIC PLAN FOR THE
                   OFFICE OF THE INSPECTOR GENERAL

1.      Investigative Agenda

       The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees concerning
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, gross waste of funds, abuse of authority or a substantial and specific danger to
the public health and safety.

        OIG has to date conducted only a reactive investigative program chiefly relying on
unsolicited employee complaints as the source of investigative leads. However, allegations and
complaints are also received from the general public and Congress. This reactive program has
resulted in only a handful of investigations per year. This strategy was followed because OIG
believed that an independent regulatory agency such as the CFTC, without grant money or
substantial contracts to award, was not likely to generate a substantial investigative workload.

        To insure that employee complaints could easily reach OIG, a 24-hour hotline was
established in February 1993 to receive complaints. The hotline phone number is (202)418-
5510.

        Because of the necessarily reactive nature ofOIG's investigative program, no
investigative agenda has been established.


2.     Legislative and Regulatory Review Agenda

        Because of the importance of this activity in a financial and economic regulatory agency,
OIG reviews proposed and final CFTC regulations, legislation and selected exchange rules using
six basic criteria: Whether the agency: (1) has identified specifically the problem(s) to be
addressed by the proposal; (2) has defined through case study or data analysis a clear link
between the proposed solution and the identified problem(s); (3) has specified clearly the means
to effectively and efficiently enforce the proposal; (4) has assessed the likely efficiency and
effectiveness of alternative solutions; (5) can reasonably document that the proposal will yield
positive net benefits over the long term; and (6) has met the requirements of the Regulatory
Flexibility Act and the Paperwork Reduction Act.

        The Regulatory Flexibility Act requires the agency to evaluate the impact of its
regulations on small entities. The Paperwork Reduction Act requires the agency to manage
effectively and efficiently its information collections so that they are the least burdensome
necessary to achieve the stipulated objectives.



                                                                                          Page 16
        Because OIG does not initiate legislation or, generally, regulations, OIG legislative and
regulatory review program is reactive to the legislative and regulatory proposals developed by
others. Accordingly, no independent legislative and regulatory review agenda has been
established.

3.     Audit, Inspection, Evaluation and Review Agenda

a. Introduction

       The primary objectives of the OIG audit, inspection, evaluation and review agenda is to
promote long-term efficiency and effectiveness in the administration and operation of the
Commission and to protect against fraud and abuse. The audit, review, evaluation, and
inspection agenda and priorities for OIG are determined based on the following factors:

Adequacy of internal control systems as indicated by vulnerability assessments and internal
control reviews recommended by OMB Circular A-123;

Changes in the program conditions or particular vulnerability of the organization, program,
activity, or function to problems or deficiencies;

Current and potential dollar magnitude and likely benefits of a review on the efficiency or
effectiveness of CFTC programs and operations;

Management priorities and improvements that may be possible;

Results of audits of CFTC programs and operations by other Federal agencies; and

Availability of audit resources and the potential opportunity costs to the agency.


b. Annual Audits

       The following required audit are performed on an annual basis.

Audit of CFTC Financial Statements

        In FY 2002, Congress passed the Accountability of Tax Dollars Act. The Act requires
the CFTC, along with numerous other Federal entities, to have its financial statements audited
annually. To this end, OIG has engaged a contractor to provide the audit effort required to
enable the contractor to render an opinion on the agency's financial statements for each fiscal
year in accordance with generally accepted auditing standards, Government Auditing Standards
and OMB Bulletin 07-04.




                                                                                          Page 17
Audit of CFTC Customer Protection Fund

Section 74S(g)(S)(I) of the Dodd-Frank Act requires the Agency to submit to Congress a yearly
report on the Commission's whistleblower award program that includes a complete set of audited
financial statements, including a balance sheet, income statement, and cash flow analysis. To
this end, OIG has engaged a contractor to provide the audit effort required to enable the
contractor to render an opinion on the Customer Protection Fund financial statements for each
fiscal year in accordance with generally accepted auditing standards.

c. Annual Review and Evaluation

        We will perform the following review and evaluation on an annual basis:

Review of Compliance with the Federal Managers' Financial Integrity Act FMFIA

       In support ofOMB Circular A-123 (Revised), the Inspector General will evaluate,
provide technical assistance and advise the agency head as to whether the agency's review and
evaluation process was conducted in accordance with the circular's requirements.

Evaluation of the CFTC Information Security Management Act FISMA

        The Federal Information Security Management Act requires the Inspector General or his
designee to perform annual independent evaluations of the information security program and
practices of the agency.


d. Other Audits, Inspections, Evaluations, Reviews and Projects

        The OIG intends to focus the balance of its resources on the review of the management
and operation of the agency with a focus on compliance with Congressional mandates. OIG has
developed an audit universe and prioritized the audit areas. The audit universe reflects the
immense regulatory undertaking required under the Dodd-Frank Act, and identifies other issues
and activities relating to management and regulatory challenges. Dodd-Frank related projects
will include our work performed in conjunction with the Inspector General's participation with
CIGFO. Finally, OIG will stand ready to respond to issues and requests as they are received
from Congress, the Agency and members of the public or any other source.


e. Resources Required

        OIG estimates that approximately one-half staff year of effort will be devoted over each
of the next five years to the two annual financial audits, the annual FMFIA review, and the
annual FISMA evaluation described above. All other investigations, inspections, evaluations,
review and other projects will consume up to five and a half staff years. Because OIG resources
can be diverted at any time to an investigation or audit, inspection, evaluation, review or project
that responds to current concerns or allegations, and must be completed in a timely fashion in

                                                                                           Page 18
order to be of assistance to the Agency or Congress, it is impossible to forecast with complete
accuracy how resources will be utilized from year to year.



                      CONTACTING THE OFFICE OF THE
                          INSPECTOR GENERAL

        OIG is located at 1155 21st Street, N.W., Washington, D.C. 20581. Regular business
hours are between 8:30 AM and 5:00 PM, Monday through Friday, except Federal holidays. The
telephone number is (202)418-5110. The facsimile number is (202)418-5522. The hotline
number is (202)418-5510. The OIG web page is located at
http://www.cfic.gov/AboutiOfficeofthelnspectorGenerallindex.htm.




                                                                                          Page 19
                                         Table 1

                    Reports Issued with Questioned Costs
                     (October 1, 2011 - March 31, 2012)

                                                       Dollar Value
                                                       Thousands
                                              Number   Questioned Unsupported

A.   For which no management decision has
     been made by the commencement of the
     reporting period                         0        0          0

B.   Which were issued during the reporting
     period                                   0        0          0

     Subtotals (A + B)                        0        0          0
c.   For which a management decision was
     made during the reporting period         0        0          0

     (1)     dollar value of
             disallowed costs                 0        0          0

     (ii)    dollar value of costs not
             disallowed                       0        0          0

D.   For which no management decision
     has been made by the end of the
     reporting period                         0        0          0




                                                                       Page 20
                                         Table 2

                   Reports Issued with Recommendations
                      That Funds be Put to Better Use
                    (October 1,2011- March 31, 2012)

                                                       Dollar Value
                                              Number   Thousands

A.   For which no management decision has
     been made by the commencement of the
     reporting period                         0        0

B.   Which were issued during the reporting
     period                                   0        0

     Subtotals (A + B)                        0        0
C.   For which a management decision was
     made during the reporting period         0        0

     (i)     dollar value of
             recommendations that
             were agreed to by management
                                              0        0

     (ii)    dollar value of
             recommendations that
             were not agreed to by
             management                       0        0

D.   For which no management decision
     has been made by the end of the
     reporting period                         0        0




                                                                      Page 21
         THE INSPECTOR GENERAL
         NEEDS YOUR HELP TO
         ASSURE THE INTEGRITY OF
         CFTC'S PROGRAMS




Report FRAUD, WASTE
Or ABUSE to the
INSPECTOR GENERAL
ANONYMOUSL Y



HOTLINE
(202) 418-5510

Office of the Inspector General
Commodity Futures Trading Commission
115521 ST Street, N.W.
Washington, D.C. 20581
